HHS/OIG-Audit--"Medicare Program; Expanded Coverage of Outpatient Diabetes Self-Management Training Services, (A-14-99-00207)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare Program; Expanded Coverage of Outpatient Diabetes Self-Management
Training Services," (A-14-99-00207)
June 7, 2000
Complete Text of Report is available in PDF format
(2.42 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that proposed payment rates established for diabetes
self-management training (DSMT) for both individual and group sessions are inflated
because the proposed rates include calculation errors. In addition, it appears
the group session payment rate is substantially higher than that being charged
in the marketplace. As a result, Medicare could make improper payments for DSMT
training totaling $50 million for Fiscal Years 2000 through 2003. Also, Medicare
beneficiaries could be adversely affected by the inflated payment rates in the
amount of $12.5 million for co-payments during the same period. We recommended
that the Health Care Financing Administration (HCFA) further review the rates
contained in the proposed rule. At a minimum, the rates should be adjusted downward
to correct the calculation errors noted by our review. We plan to expand our
work in this area into a national study of the training services being rendered.
If HCFA finalizes the proposed rates before our work is completed, then we suggest
that HCFA acknowledge in the final rule that the Office of Inspector General
is performing additional work and the rates may be modified at a later date.